TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Fiscal Year 2014 Statutory Audit of
                     Compliance With Legal Guidelines
                 Prohibiting the Use of Illegal Tax Protester
                          and Similar Designations



                                        August 27, 2014

                             Reference Number: 2014-30-060




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                     HIGHLIGHTS


FISCAL YEAR 2014 STATUTORY AUDIT                        WHAT TIGTA RECOMMENDED
OF COMPLIANCE WITH LEGAL
                                                        TIGTA made no recommendations in this report.
GUIDELINES PROHIBITING THE USE OF                       IRS officials were provided an opportunity to
ILLEGAL TAX PROTESTER AND                               review the draft report and did not provide any
SIMILAR DESIGNATIONS                                    comments.


Highlights
Final Report issued on August 27, 2014

Highlights of Reference Number: 2014-30-060
to the Internal Revenue Service Deputy
Commissioner for Services and Enforcement
and Deputy Commissioner for Operations
Support.
IMPACT ON TAXPAYERS
Congress enacted the IRS Restructuring and
Reform Act of 1998 (RRA 98) Section 3707 to
prohibit the IRS from labeling taxpayers as
Illegal Tax Protesters or any similar
designations. Using Illegal Tax Protester or
other similar designations may stigmatize
taxpayers and may cause employee bias in
future contacts with these taxpayers.
WHY TIGTA DID THE AUDIT
Congress enacted the prohibition against Illegal
Tax Protester designations because it was
concerned that some taxpayers were being
permanently labeled as Illegal Tax Protesters
even though they had subsequently become
compliant with the tax laws. TIGTA is required
to annually evaluate IRS compliance with the
prohibition against using Illegal Tax Protester or
similar designations.
The purpose of this audit was to determine
whether the IRS complied with RRA 98
Section 3707 and its own internal guidelines that
prohibit IRS officers and employees from
referring to taxpayers as Illegal Tax Protesters
or any similar designations.
WHAT TIGTA FOUND
The IRS has not reintroduced past Illegal Tax
Protester codes or similar designations on
taxpayer accounts. However, TIGTA found that
in one instance the IRS used the phrase “Tax
Defier” in the Internal Revenue Manual.
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 August 27, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT
                DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                         Michael E. McKenney
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2014 Statutory Audit of Compliance
                               With Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                               Similar Designations (Audit # 201430007)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with the IRS Restructuring and Reform Act of 1998 (RRA 98)1 Section 3707 and
 its own internal guidelines that prohibit IRS officers and employees from referring to taxpayers
 as Illegal Tax Protesters or any similar designations. The Treasury Inspector General for Tax
 Administration is required under Internal Revenue Code Section 7803(d)(1)(A)(v) to annually
 evaluate the IRS’s compliance with the provisions of RRA 98 Section 3707. The review is
 included in our Fiscal Year 2014 Annual Audit Plan and addresses the major management
 challenge of Taxpayer Protection and Rights.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review the draft report. IRS management did not provide us with any report
 comments.
 Copies of this report are also being sent to the IRS managers affected by the report. If you have
 any questions, please contact me or Bryce Kisler, Acting Assistant Inspector General for Audit
 (Compliance and Enforcement Operations).




 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                           Fiscal Year 2014 Statutory Audit of Compliance With
                     Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                          Similar Designations




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Illegal Tax Protester Codes Were Not Used on the Master File ................... Page 3
          Illegal Tax Protester or Similar Designations Were Not Found in
          Case Narratives ............................................................................................. Page 3
          The Internal Revenue Manual Contained One Use of a Similar
          Designation ................................................................................................... Page 4
          Alternative Methods That Avoid the Need for Illegal Tax Protester
          Designations Are in Place to Address Tax Compliance Issues .................... Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 6
          Appendix II – Major Contributors to This Report ........................................ Page 8
          Appendix III – Report Distribution List ....................................................... Page 9
          Appendix IV – Previous Audit Reports Related to This
          Statutory Review ........................................................................................... Page 10
          Appendix V – Glossary of Terms ................................................................. Page 12
               Fiscal Year 2014 Statutory Audit of Compliance With
         Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                              Similar Designations




                         Abbreviations

IRM                Internal Revenue Manual
IRS                Internal Revenue Service
RCCMS              Reporting Compliance Case Management System
RRA 98             Restructuring and Reform Act of 1998
TIGTA              Treasury Inspector General for Tax Administration
                        Fiscal Year 2014 Statutory Audit of Compliance With
                  Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                       Similar Designations




                                             Background

Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98)1 Section
(§) 3707 prohibits the IRS from using Illegal Tax Protester or any similar designations. In
addition, the law requires the removal of all existing Illegal Tax Protester codes from the Master
File2 and instructs IRS employees to disregard any such designation located on databases other
than the Individual Master File.
Prior to enactment of the RRA 98, the IRS used the Illegal Tax Protester Program to identify
individuals and businesses that were using methods that were not legally valid to protest the tax
laws. IRS employees identified taxpayers for referral to the Program when their tax returns or
correspondence contained specific indicators of noncompliance with the tax law, such as the use
of arguments that had been repeatedly rejected by the courts. There were tax protester
coordinators who were responsible for determining whether a taxpayer should be included in the
Illegal Tax Protester Program. If a taxpayer was classified as an Illegal Tax Protester, the
taxpayer’s record was coded as such on the Master File. Once a taxpayer’s account was coded,
certain tax enforcement actions were accelerated. The designation was also intended to alert
employees to be cautious so they would not be drawn into confrontations with taxpayers.
Congress was concerned that some taxpayers were being
permanently labeled and stigmatized by the Illegal Tax        The Treasury Inspector General
Protester designation. The concern was that this label            for Tax Administration is
could bias IRS employees and result in unfair                  required to annually evaluate
treatment of the taxpayer. Internal Revenue Code                  IRS compliance with the
                                                                  prohibition against using
§ 7803(d)(1)(A)(v) requires the Treasury Inspector              Illegal Tax Protester or any
General for Tax Administration (TIGTA) to annually                  similar designations.
evaluate IRS compliance with the prohibition against
using the Illegal Tax Protester or any similar
designations. This is our sixteenth review since Fiscal Year 1999. These reviews have identified
areas for improvement to help the IRS comply with the Illegal Tax Protester designation
prohibition.
Based on the general decline in the use of Illegal Tax Protester or similar designations by IRS
employees in recent years, and in the interest of conserving resources, TIGTA revised its
methodology for evaluating the use of these designations on the multiple computer systems used
by IRS employees. TIGTA will continue to review the Individual Master File and related


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix V for a glossary of terms.
                                                                                                              Page 1
                     Fiscal Year 2014 Statutory Audit of Compliance With
               Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                    Similar Designations


systems annually, as required by the RRA 98, and will review other IRS systems on a periodic
basis. This year we focused on the Internal Revenue Manual (IRM) and the Reporting
Compliance Case Management System (RCCMS).
This review was performed with information obtained from the Small Business/Self-Employed
Division in New Carrollton, Maryland; the Tax Exempt and Government Entities Division in
Washington, D.C.; and the Wage and Investment Division in Atlanta, Georgia, during the period
January 2014 through June 2014. This performance audit was conducted in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                      Fiscal Year 2014 Statutory Audit of Compliance With
                Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                     Similar Designations




                                 Results of Review

Illegal Tax Protester Codes Were Not Used on the Master File
Prior to enactment of the RRA 98, the IRS used Illegal Tax Protester indicators on the Master
File to accelerate collection activity for taxpayers who were delinquent in filing tax returns or
paying their taxes. These indicators were also intended to alert employees that they might
encounter problems when dealing with nonfilers and delinquent taxpayers.
Congress was concerned about the use of the Illegal Tax Protester designation because:
      Taxpayers were labeled as Illegal Tax Protesters without regard to their filing obligations
       or compliance.
      Illegal Tax Protester indicators were not always reversed when taxpayers became
       compliant with their tax obligations.
RRA 98 § 3707 required the IRS to remove the existing Illegal Tax Protester designations from
taxpayers’ accounts on the Master File beginning January 1, 1999.
In prior reviews, TIGTA reported that the IRS had removed these designation codes from the
Master File as required by the law. Based on our analysis of approximately 1.2 million taxpayer
records that had been coded for accelerated collection activity, the IRS has not reintroduced
Illegal Tax Protester codes on the Master File. The law also prohibits using any designation
similar to Illegal Tax Protester. We matched approximately 57,000 taxpayer accounts formerly
coded as Illegal Tax Protesters to the Master File and confirmed that the IRS had not input any
other type of similar designation on these accounts.
Illegal Tax Protester or Similar Designations Were Not Found in Case
Narratives
We selected a random sample of 56 cases from the Tax Exempt and Government Entities
Division’s RCCMS with activity between October 1, 2012, and September 30, 2013. The
RCCMS provides Tax Exempt and Government Entities Division personnel with the capability
to perform division-wide inventory control, compliance testing, tax computing, education and
outreach, and team examination monitoring. Our review found no use of Illegal Tax Protester or
other similar designations in any of the sampled case narratives.




                                                                                             Page 3
                     Fiscal Year 2014 Statutory Audit of Compliance With
               Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                    Similar Designations


The Internal Revenue Manual Contained One Use of a Similar
Designation
In nine of our prior reviews, we identified
Illegal Tax Protester references in various
formats of the IRM. The official IRM is
maintained on the Electronic Publishing
website. However, it is also found
electronically on the IRM Online, the
Service-wide Electronic Research Program,
IRS.gov, and on CD-ROM, as well as in paper
format. The graphic to the right shows the
relationship between the official IRM and the
various formats available to IRS employees.
In our current review, we found one use of the
term “Tax Defier” in the various formats of
the IRM. This reference was brought to the
attention of Small Business/Self-Employed
Division management during our audit. We
were told by Small Business/Self-Employed
Division management that this reference will
be removed from the next update of the IRM, planned for March 2016.
Removing all Illegal Tax Protester or similar references from the various formats of the IRM
helps to avoid any inappropriate implication that the use of this label is permitted. Based on the
actions taken by the IRS, we believe no further recommendations are warranted at this time.
Alternative Methods That Avoid the Need for Illegal Tax Protester
Designations Are in Place to Address Tax Compliance Issues
IRS tax compliance operations have not been significantly affected by the prohibition against
using Illegal Tax Protester or similar designations because alternative programs exist to address
issues previously handled by the Illegal Tax Protester Program. These include:
      The Frivolous Return Program that handles taxpayers who file tax returns based on some
       type of frivolous argument that justifies payment of little or no income tax. This includes
       filing a tax return claiming no income using the rationale that paying taxes is voluntary or
       claiming to be a citizen of a State but not a citizen of the United States.
      The Nonfiler Program that handles taxpayers who fail to file their required tax returns.
      The Potentially Dangerous Taxpayer/Caution Upon Contact Program that handles
       taxpayers who have assaulted and/or threatened IRS employees.

                                                                                            Page 4
                     Fiscal Year 2014 Statutory Audit of Compliance With
               Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                    Similar Designations


Each of these programs is set up to address various issues IRS employees may encounter when
dealing with taxpayers protesting the legality of paying their income taxes. Unlike the former
Illegal Tax Protester Program, each program addresses a specific taxpayer behavior. In addition,
taxpayers are not assigned to these individual programs on a permanent basis, as was the case in
the Illegal Tax Protester Program.
None of our prior reviews have identified instances in which the Illegal Tax Protester indicator
was needed on a taxpayer’s account to either accelerate tax enforcement actions and/or alert IRS
employees to be cautious when dealing with the taxpayer. As such, prohibiting the use of the
Illegal Tax Protester designation has not had a significant impact on IRS collection or
examination activities.




                                                                                          Page 5
                       Fiscal Year 2014 Statutory Audit of Compliance With
                 Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                      Similar Designations


                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the IRS complied with RRA 981
§ 3707 and its own internal guidelines that prohibit IRS officers and employees from referring to
taxpayers as Illegal Tax Protesters or any similar designations. To accomplish the objective, we:
I.      Determined if the Illegal Tax Protester coding on the Master File2 was removed by
        reviewing all tax accounts coded for accelerated collection activity as of
        September 30, 2013, on the Business Master File and Individual Master File. We
        analyzed 1,224,351 Master File records that had been coded for accelerated collection
        activity.3
        We also matched our historic computer extract of approximately 57,000 taxpayers
        designated as Illegal Tax Protesters before the RRA 98 was enacted to the records that
        had been coded for accelerated collection activity to determine if any new common codes
        were being used to classify the taxpayers as Illegal Tax Protesters.
II.     Determined if employees were using Illegal Tax Protester or any similar designations
        within the Activity Code field on the Taxpayer Information File by securing a copy of the
        database and analyzing 109,128 open records with activity between October 1, 2012, and
        September 30, 2013.
III.    Determined if the IRS is using any Frivolous Return Program codes as replacements for
        Illegal Tax Protester designations by reviewing guidance provided for the Frivolous
        Return Program and interviewing its Program Coordinator.
IV.     Determined if there is any relationship between Illegal Tax Protester designations and
        Potentially Dangerous Taxpayer/Caution Upon Contact indicator use on the Master File
        by reviewing guidance provided for the Potentially Dangerous Taxpayer/Caution Upon
        Contact Program and interviewing its Program Coordinator.
V.      Determined if the IRS Nonfiler Program is in compliance with the provisions established
        by RRA 98 § 3707(b) by reviewing guidance provided for the Nonfiler Program and
        interviewing its program coordinators.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix V for a glossary of terms.
3
  A Transaction Code 148 causes the accelerated issuance of a Taxpayer Delinquency Investigation or Taxpayer
Delinquent Account.
                                                                                                        Page 6
                      Fiscal Year 2014 Statutory Audit of Compliance With
                Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                     Similar Designations


VI.    Determined if the IRM contained Illegal Tax Protester or any similar designations by
       performing key word searches of the IRS Electronic Publishing website, the IRM online,
       the Service-wide Electronic Research Program, and the IRS.gov website.
VII.   Determined if employees were using Illegal Tax Protester or any similar designations
       within case narratives of the Tax Exempt and Government Entities Division’s RCCMS.
       Due to limited audit resources, we obtained and reviewed a randomly selected sample of
       56 individual case files out of a total of 2,378 cases with activity on the RCCMS for the
       period October 1, 2012, through September 30, 2013.
Validity and reliability of data from computer-based systems
Unless otherwise noted, our limited tests of the reliability of data obtained from various IRS
systems did not identify any errors. We tested the reliability of the data by scanning the data
received for blank, incomplete, illogical, or improper data. In addition, we compared the
information in a judgmental sample of 25 records each for the Business Master File, Individual
Master File, RCCMS, and Taxpayer Information File to IRS source data on the Integrated Data
Retrieval System to ensure data accuracy.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: controls that ensure the
reliability of the data used for our analysis. During our review, we tested the validity of the data
used for our analyses against selected IRS data, but we did not perform any specific testing of
data input controls. However, it should be noted that, except for the RCCMS, data from these
same systems were used during prior audits of Illegal Tax Protester designations, and no
significant data issues were identified.




                                                                                              Page 7
                    Fiscal Year 2014 Statutory Audit of Compliance With
              Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                   Similar Designations


                                                                             Appendix II

                 Major Contributors to This Report

Nancy Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Glen Rhoades, Director
Robert Jenness, Audit Manager
Ali Vaezazizi, Lead Auditor
Donna Saranchak, Senior Auditor
James Allen, Information Technology Specialist




                                                                                         Page 8
                    Fiscal Year 2014 Statutory Audit of Compliance With
              Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                   Similar Designations


                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Commissioner, Tax Exempt and Government Entities Division SE:T
Chief, Appeals AP
Chief Technology Officer OS:CTO
Director, Office of Research, Analysis and Statistics RAS
Director, Communications and Liaison, National Taxpayer Advocate TA:CL
Director, Office of Servicewide Policy, Directives and Electronic Research RAS:SPDER
Director, Communications and Stakeholder Outreach SE:S:COSS:CSO
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Strategy and Finance, Research and Analysis SE:W:S:R:PEI
Chief, GAO/TIGTA/IMRS SE:S:COSS:CSOHQ:GTI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Deputy Commissioner for Operations Support OS
   Deputy Commissioner for Services and Enforcement SE
   National Taxpayer Advocate TA
   Chief Technology Officer OS:CTO
   Senior Operations Advisor, Wage and Investment Division SE:W:BMO




                                                                                       Page 9
                     Fiscal Year 2014 Statutory Audit of Compliance With
               Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                    Similar Designations


                                                                                Appendix IV

             Previous Audit Reports Related to This
                       Statutory Review

TIGTA previously performed 15 mandatory audits in this subject area. These audits were:
TIGTA, Ref. No. 2013-30-085, Fiscal Year 2013 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Aug. 2013).
TIGTA, Ref. No. 2012-30-066, Fiscal Year 2012 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Jun. 2012) .
TIGTA, Ref. No. 2011-30-040, Fiscal Year 2011 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Apr. 2011).
TIGTA, Ref. No. 2010-30-073, Fiscal Year 2010 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Jul. 2010).
TIGTA, Ref. No. 2009-40-078, Fiscal Year 2009 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (May 2009).
TIGTA, Ref. No. 2008-40-124, Fiscal Year 2008 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (May 2008).
TIGTA, Ref. No. 2007-40-112, Fiscal Year 2007 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Jun. 2007).
TIGTA, Ref. No. 2006-40-098, Fiscal Year 2006 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Jul. 2006).
TIGTA, Ref. No. 2005-40-104, Fiscal Year 2005 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Jul. 2005).
TIGTA, Ref. No. 2004-40-109, Fiscal Year 2004 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Jun. 2004).
TIGTA, Ref. No. 2003-40-098, Fiscal Year 2003 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Apr. 2003).
TIGTA, Ref. No. 2002-40-162, Efforts Are Still Needed to Discourage the Use of Illegal Tax
Protester and Similar Designations (Sept. 2002).
TIGTA, Ref. No. 2001-10-141, Improvements Have Been Made to Eliminate Illegal Tax
Protester Designations (Sept. 2001).

                                                                                         Page 10
                    Fiscal Year 2014 Statutory Audit of Compliance With
              Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                   Similar Designations


TIGTA, Ref. No. 2000-10-119, Additional Action Is Needed to Eliminate Illegal Tax Protester
Designations (Sept. 2000).
TIGTA, Ref. No. 1999-10-080, The Internal Revenue Service Is Addressing the Use of the Illegal
Tax Protester and Nonfiler Designations (Sept. 1999).




                                                                                      Page 11
                Fiscal Year 2014 Statutory Audit of Compliance With
          Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                               Similar Designations


                                                                            Appendix V

                         Glossary of Terms

Activity Code            A code that identifies the type and condition of returns
                         selected for audit.
Business Master File     IRS database that consists of Federal tax-related transactions
                         and accounts for businesses. These include employment
                         taxes, income taxes on businesses, and excise taxes.
Campus                   The data processing arm of the IRS. The campuses process
                         paper and electronic submissions, correct errors, and forward
                         data to the Computing Centers for analysis and posting to
                         taxpayer accounts.
Fiscal Year              A yearly accounting period, regardless of its relationship to a
                         calendar year. The Federal Government’s fiscal year begins
                         on October 1 and ends on September 30.
Individual Master File   IRS database that maintains transactions or records of
                         individual tax accounts.
Integrated Data          A computer system capable of retrieving or updating stored
Retrieval System         information; it works in conjunction with a taxpayer’s account
                         records.
Internal Revenue Code    Federal tax law enacted by Congress in Title 26 of the United
                         States Code.
Internal Revenue         A manual containing the IRS’s internal guidelines.
Manual
Master File              IRS database that stores various types of taxpayer account
                         information. This database includes individual, business, and
                         employee plans and exempt organizations data.
Reporting Compliance     Provides Tax Exempt and Government Entities Division
Case Management          personnel with the capability to perform division-wide
System                   inventory control, compliance testing, tax computing,
                         education and outreach, and team examination monitoring.




                                                                                     Page 12
                Fiscal Year 2014 Statutory Audit of Compliance With
          Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                               Similar Designations


Service-wide           An electronic research tool containing many former paper
Electronic Research    research applications (e.g., publications, the IRM, the Probe
Program                and Response Guide).
Taxpayer Delinquency   An unfiled tax return for a taxpayer. One Taxpayer
Investigation          Delinquency Investigation exists for all unfiled tax periods for
                       a specific taxpayer.
Taxpayer Delinquent    A balance due account of a taxpayer. A separate Taxpayer
Account                Delinquent Account exists for each balance due tax period.
Taxpayer Information   A file containing entity and tax data processed at a given
File                   campus for all Taxpayer Identification Numbers.
Transaction Code       A three-digit code used to identify transactions being taken on
                       a taxpayer’s account.




                                                                                    Page 13
